NO. 19-1049

In the
Supreme Court of the United States
BOLIVARIAN REPUBLIC OF VENEZUELA AND PETRÓLEOS DE VENEZUELA,
S.A,
Petitioners,
V.
CRYSTALLEX INTERNATIONAL CORPORATION,
Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar
and, as required by Supreme Court Rules 33.1(h) and 33.1(g)(iii), the Reply Brief for
the Petitioners contains 2,993 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
Dated: April 27, 2020

Respectfully submitted,

Arn Jacobsen

